CERTIFICATE OF SERVICE
I, Jaime A. Santos, a member of the Bar of this Court, hereby certify on this
6th day of November, 2019, that a copy of this Application for an Extension of Time
Within Which to File a Petition for a Writ of Certiorari to the United States Court of
Appeals for the First Circuit in the above-entitled case was mailed, first class postage
prepaid to counsel for respondents at the following address:
Annapurna Balakrishna
United States Attorney's Office for the District of Massachusetts
John Joseph Moakley United States Courthouse
One Courthouse Way, Suite 9200
Boston, Massachusetts 02210
Annapurna.Balakrishna@usdoj.gov
As required by Rule 29.3, an electronic version is being transmitted to the
email address listed above.
I further certify that all parties required to be served have been served.

J

~ eA.S~
A-~

